<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES FOR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES FOR 2014

                              ----------                              

                                           Tuesday, March 19, 2013.

                    QUALITY OF LIFE IN THE MILITARY

                               WITNESSES

SERGEANT MAJOR RAYMOND F. CHANDLER, III, SERGEANT MAJOR OF THE ARMY
MASTER CHIEF PETTY OFFICER MICHAEL D. STEVENS, MASTER CHIEF PETTY 
    OFFICER OF THE NAVY
SERGEANT MAJOR MICHAEL P. BARRETT, SERGEANT MAJOR OF THE MARINE CORPS
CHIEF MASTER SERGEANT OF THE AIR FORCE JAMES A. CODY

                      Chairman's Opening Statement

    Mr. Culberson. Meeting of the Military Construction and VA 
Subcommittee of the Appropriations Committee will come to 
order.
    I want to welcome everybody here today to our military 
quality of life hearing for our service members to hear 
directly on what we can do as a committee and Congress to help 
improve the quality of life for our enlisted soldiers.
    It is absolutely vital that the men and women in uniform 
that defend this country focus on their mission and not ever 
have to worry about their healthcare, their quality of life, 
the equipment, or the fact that the United States Congress and 
the people of this country have their back.
    We are delighted to have with us today as our four 
witnesses, the senior enlisted members of the respective 
branches for the military and the members should--it is 
important to note that we have got approximately 120 years 
combined military experience here before us today.
    And we are very, very grateful to you, gentlemen, for your 
service to the country. This hearing is a great opportunity for 
us on the subcommittee to identify areas where we can help do 
more to help you who protect and defend this nation.
    I would be happy to recognize at this time, Mr. Bishop, for 
his opening remarks.

                   Ranking Member's Opening Statement

    Mr. Bishop. Thank you very much, Mr. Chairman, for 
yielding.
    Before I get started, I would, just to make a note--point 
of personal privilege to note that today is the 10th 
anniversary of the start of the war in Iraq.
    That was pointed out to me by my young military fellow, and 
I think that it is appropriate that we should at least take a 
moment to reflect on the fact that this is the 10th anniversary 
for the men and women who have served so valiantly and 
particularly for those who lost their lives in the effort.
    So if we would, Mr. Chairman, I would ask for just a moment 
of silence.
    [Moment of silence.]
    Thank you, and I always look forward to this hearing and I 
want to welcome our witnesses because these are the folks that 
give us the best picture of what the folks on the front lines 
are dealing with.
    We talk a lot about facilities, equipment, and strategy, 
but it is the men and the women like the ones sitting before us 
that really--we want to make sure that it is our responsibility 
to take care of.
    That is why we have of the Congressional Military Family 
Caucus so that we can better address the issues that these 
gentlemen raise today.
    I want to make sure, as the chairman has indicated, that we 
are doing enough to help our service members because the last 
thing that they need to worry about when they are at war is 
what is going on back home.
    In all of your testimonies you raised many issues that 
confront your services such as family services, recruiting, 
retention, and transition, and I want you all to use this as an 
opportunity to tell us what we have gotten right and what we 
need to improve in order to ease the burden that is placed upon 
our service members and their families.
    In addition, as you are very much aware, March 1st marked 
the beginning of the sequestration which CBO predicts will 
reduce GDP growth by 6/10th of a percentage point this year 
alone and it estimates that up to 1.4 million jobs are at stake 
if sequestration is fully implemented. In addition to the CBO, 
the George Mason University study predicts that it could be as 
many as 2.4 million jobs lost.
    And the sequestration was included in the Budget Control 
Act, I guess to force Republicans and Democrats to work 
together to solve the fiscal problems.
    It hasn't happened yet, but while service member pay is 
protected from sequestration, I want and I think the chairman 
would like to hear, how it will impact the service members in 
other ways, other than pay, because it appears that many 
service members will have to backfill civilian positions while 
civilians are furloughed.
    So I would like to know how this will affect morale and if 
you think it will have an effect on retention and recruitment. 
So thank you very much for coming today, and we look forward to 
hearing your comments.
    Mr. Culberson. Thank you, Mr. Bishop.
    Our witnesses today are the Sergeant Major of the Army, 
Raymond F. Chandler, III.
    Thank you, sir, for your service to this country. You are a 
returning witness and were sworn into your current role on 
March 1st, 2011 after 32 years of service in the United States 
Army, sir.
    And Sergeant Major Chandler has served in all tank crewman 
positions and has had multiple tours as a troop squadron and 
regimental master gunner.
    And of course, we are pleased to have Judge Carter here who 
represents Fort Hood, and I know you all know each other well,
    And delighted to have you here, sir, and thanks for your 
service.
    We also have with us today the Sergeant Major of the Marine 
Corps, Michael Barrett.
    And we are delighted to have you here, sir, as a returning 
witness.
    Sergeant Major Barrett assumed his current post as the 17th 
Sergeant Major of the Marine Corps on June 9th of 2011, after 
32 years of service. He enlisted in March of 1981.
    He has been an infantry instructor. He served in the Gulf 
War with Task Force Papa Bear, completed two combat deployments 
in support of Operation Iraqi Freedom in the Al Anbar Province 
in Iraq and deployed to Operation Enduring Freedom in 2010, and 
became the NATO Regional Command--Command Sergeant Major for 
Nimroz and Helmand Province in Afghanistan.
    Thank you very much, sir, for your service. I am glad to 
have you here.
    We are also joined by the Chief Master Sergeant of the Air 
Force, James A. Cody. Chief Master Sergeant Cody is a first-
time witness, sir, and congratulations on your assignment. We 
are delighted to have you here today.
    The Chief Master Sergeant was appointed in January 2013 as 
the 17th Chief Master Sergeant of the Air Force. He has 29 
years of service after entering the Air Force in 1984.
    And his background includes various duties in air traffic 
control at the unit and major command levels, and he has served 
overseas in Germany, South Korea, Turkey, and deployed in 
support of Operation Southern Watch and Operation Enduring 
Freedom.
    Unfortunately, Master Chief Petty Officer of the Navy, 
Michael Stevens, was admitted to the hospital last evening and 
is unable to testify today.
    I understand they postponed his surgery and of course he 
was ready to come down here and testify, but we discouraged him 
from doing so and certainly wish he and his family the very 
best. And he is in our prayers and confident that between the 
good Lord and good doctors that he will be back on his feet 
soon.
    His statement, of course, as will yours, be entered into 
the record and any questions members have prepared for him will 
be submitted for the record and a response will be of course 
provided.
    Also, the master chief wants to stress that he is willing 
to set up an office visit with members as necessary.
    I especially want to thank Mr. Bishop for reminding us that 
today is the 10th anniversary of the beginning of this long war 
that we have been in, the longest, as is pointed out in your 
testimony, that the nation has ever been engaged in, leading to 
long deployments and in many cases, I think, Sergeant Major 
Chandler, you said five and six deployments sometimes for some 
of the men and women in the Army.
    I know as you have seen, Judge, a terrible personal cost to 
them and their families.
    And we look forward to hearing from you on what this 
committee and the Congress can do to help ease their burden, 
raise their level of comfort, and minimize their concern and 
worry for the living conditions, for their schools, for their 
families, for their healthcare.
    That is our highest priority, is to eliminate the worries 
that you and the men and women that you represent would ever 
have to deal with as you serve our country around the world.
    We are delighted to have you and of course your witness 
statements, without objection, will be entered into the record. 
And please feel free to summarize your remarks in about 5 
minutes each. And we are very grateful, again, for your service 
and would like to, if we could, go ahead and start with you, 
Sergeant Major Chandler. Thank you very much.

              Opening Statement of Sergeant Major Chandler

    Sergeant Major Chandler. Thank you too, sir.
    Chairman Culberson, Ranking Member Bishop, distinguished 
members of the committee, thank you for your invitation to 
represent the more than 2.2 million people that make up your 
Army; our soldiers, their family members, and our Department of 
the Army civilians.
    This subcommittee has a tremendous responsibility ensuring 
we have the infrastructure to support our soldiers today and 
into the foreseeable future. We truly appreciate all the recent 
support you have shown into the Army, especially the funding 
for construction of military hospitals, child development 
centers, barracks, and family housing since 9/11.
    I would also like to welcome all new committee members. I 
truly appreciate you taking on the tremendous responsibility of 
supporting our soldiers who are dedicated to defending our 
nation.
    Over the past 11 years, our Army has been fully committed 
to combat operations in Iraq, Afghanistan, and other locations 
around the globe.
    Secretary McHugh, General Odierno, and I are proud of all 
that our Army has accomplished during this period. We have 
proven ourselves in every engagement and continue to display 
the physical and mental toughness long associated with the word 
``soldier.''
    General Odierno has highlighted three principal and 
interconnected roles for the Army as part of Joint Force 2020.
    First, the Army must prevent conflict by maintaining 
credibility to avert miscalculations by potential adversaries.
    Second, the Army must shape the environment by sustaining 
strong relationships with other armies, building their capacity 
and facilitating strategic access.
    And finally, if prevention fails, the Army must rapidly 
apply its capabilities to dominate the environment and win 
decisively.
    Even though we are an Army in transition, our mission has 
not changed, which is to fight and defend and win our nation's 
wars. In today's uncertain and complex environment, we are 
committed to ensure the Army is the best manned, equipped, 
trained, and led force in the world.
    However, limited resources have had an impact on our 
ability to do this. Our strategy to defend the nation and its 
necessary actions requires the Army to have flexibility and 
predictability, something we do not currently have and that 
Army leadership are challenged to alter.
    The fiscal outlook which the Army faces today is 
challenging and to my recollection, unprecedented. Fiscal 
uncertainties do not allow us to prevent, shape, and win.
    The Army has been in the state of continuous war for the 
longest time in our nation's history and today we have a more 
than 81,000 soldiers committed to operations around the world 
with approximately 58,000 serving in Afghanistan.
    Nearly 1.5 million soldiers have deployed. More than half a 
million have deployed with up to six deployments over the past 
11 years. As a matter of fact, I just met a young man yesterday 
who was starting his seventh deployment in just a few weeks.
    The magnitude of today's fiscal uncertainty have grave 
consequences for our soldiers, civilians, and families. We 
cannot put the burden of these cuts on their shoulders. The 
current continuing resolutions affecting shortfalls for our 
funding of overseas contingency operations due to emerging 
costs in theater.
    With the enactment of sequestration, the Army is also being 
forced to make dramatic cuts to personnel, readiness, and 
modernization programs thereby putting our national security at 
risk.
    Army leaders are proud of the contributions of our 
soldiers, but many have hidden and invisible wounds. Your 
support has allowed us to address issues such as post-traumatic 
stress, traumatic brain injury, and wounded warrior care.
    That support is greatly appreciated. Your continued support 
will help us continue deliver the best care possible for our 
young men and women.
    We have launched the Army profession campaign to ensure 
that every soldier understands how their competence, 
commitment, and character underpin the public's trust with the 
American soldier.
    Examples of that professionalism include the nonevent which 
was the repeal of Don't Ask Don't Tell and the expansion of 
career opportunities for female soldiers in combat arms.
    For the past 2 years, the Army chose to significantly 
reduce our military construction requests as decisions were 
being made about our drawdown and force structure determined by 
the total Army analysis.
    This year, we will complete that assessment, but all new 
military construction had been limited by the continuing 
resolution. I request your understanding and support when we 
seek to continue modernizing our force and its facilities.
    This will support our soldiers and their families by 
renovating and replacing aging facilities and investing in 
infrastructure to ensure our ability to continue meeting the 
needs of the nation is fulfilled.
    Chairman, as you previously mentioned, and also Ranking 
Member Bishop, this week marks the 10th anniversary of the Iraq 
war. I would especially like to recognize our Army's 2,574 
hostile casualties, our 21,947 soldiers wounded in action, and 
the more than 8,700 awards presented to soldiers for valor in 
Operation Iraqi Freedom and Operation New Dawn.
    Since 9/11, more than 4,800 soldiers have given their last 
full measure in combat zones around the world. Collectively, 
this is a commitment to the nation we cannot deny.
    In closing, I want to recognize the amazing work being done 
every day by the Army team. As the Sergeant Major of the Army, 
the best part of my job is visiting our soldiers' families and 
civilians around the world.
    They are truly amazing people who are committed to whet 
their craft, their profession, and they continue to demonstrate 
that each and every day even in the impacts of very strenuous 
and difficult times.
    I appreciate this opportunity to speak before you and tell 
our story and welcome your questions.
    Thank you. And Army Strong.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    
    Mr. Culberson. Thank you very much, Sergeant Major.
    Sergeant Major Barrett, before we begin with your 
testimony, if I could, sir, I wanted to recognize our 
distinguished ranking member of the full committee; delighted 
to have her here with us on the subcommittee. At this time, I 
would like to recognize Mrs. Lowey.

                      Mrs. Lowey Opening Statement

    Mrs. Lowey. I would like to thank Chairman Culberson and 
Ranking Member Bishop, and I thank you for your friendship and 
your warm welcome. It is a pleasure for me to be here today.
    I also wanted to extend my good wishes. I understand that--
is this causing trouble?
    Loud and clear. I understand the representative of the Navy 
couldn't be with us, and I certainly extend our good wishes and 
hope for a speedy recovery.
    I want to express my appreciation for your service to our 
country and I extend you a very warm welcome, our distinguished 
military witnesses.
    In recent months, leaders in Congress on both sides of the 
aisle have discussed the consequences of sequestration. And 
beginning April 15th, 768,000 civilians working at the 
Department of Defense will begin to be furloughed, which will 
have a direct impact on military quality of life by reducing 
services in family support centers, day care centers, 
deployment readiness centers, family medical services, 
counseling services for sexual assault victims, and suicide 
prevention.
    Furthermore, 139 DOD schools have facilities with an 
overall condition rating of either poor or failing, and the 
quite significant recapitalization efforts to eliminate space 
shortfalls in temporary facilities. I was just shocked by those 
numbers.
    Sequestration's $523 million reduction to the defense-wide 
account will only exacerbate this problem. I am particularly 
concerned about the disproportionate effect sequestration will 
have on our veterans. Transition assistance services are 
crucial to help veterans adjust to civilian life and find 
employment after separating from service.
    It is imperative to support these programs to uphold.
    It is imperative to support these programs to uphold our 
promise to those who have served our country so bravely. I am 
also concerned that reductions in funding for mental health 
services for active duty military personnel will have 
devastating and long-lasting impacts. PTSD, depression, 
suicide, are just too common among our service members.
    Sequestration threatens our ability to care for the mental 
wellness of military personnel. We cannot turn our backs on 
those who are serving our country. And that is one of the many 
reasons why Congress should avoid full implementation of 
sequestration by passing a balanced plan that closes tax 
loopholes, trims entitlements, and slows future growth of 
spending.
    And I just want to make one other point because when you 
hear the morning news, you hear the up-to-date statistics and 
the one even, though it is not your program, I know you care, 
it is the veterans affairs, VA, the backlog of veterans' claims 
is outrageous. And if we don't all do something about it, shame 
on us.
    And I know that you care about transition services, and I 
know you worry about those who are trying to transition into a 
life back home. And I do hope you will work with us to deal 
with all these issues that are so very critical.
    So thank you so much.
    And thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much, Mrs. Lowey.
    As you know, this is the one subcommittee--we really work 
arm in arm in support of you and it is a real privilege for all 
of us to be here to help you.
    Sergeant Major Barrett, we look forward to hearing from 
you, sir. Thank you.

              Opening Statement of Sergeant Major Barrett

    Sergeant Major Barrett. Thank you, sir.
    Chairman Culberson, Ranking Member Bishop, and 
distinguished members of the subcommittee, in the early hours 
of this morning, our nation lost seven Marines, and I ask you 
to keep their families and all the men and women who serve our 
country in your thoughts and prayers.
    Today as we discuss important quality-of-life issues, there 
are covert enemies searching for windows of vulnerability to 
exploit our liberties and security.
    Additionally, the unknown short-and long-term impacts of 
the continuing resolution and sequestration add risks to those 
who wear the cloth of this nation and causes unnecessary stress 
and strain to the people who love them most, our families.
    Despite these challenges, your Marines continue to live 
hard, train hard, and fight hard, providing our nation the 
capability to contain the crisis, fill the gap, and hold the 
line.
    The quality-of-life needs we hold dear and rely on relieves 
us and our loved ones of that unnecessary strain and stress, 
allowing us to focus on and to always be leaning forward and 
ready to respond whenever the nation calls and wherever the 
president may direct.
    This past decade serves as a perfect example. Humanitarian 
assistance and disaster relief, nine combat and evacuation 
operations, supporting and reinforcing embassies around the 
globe, regional and theater security cooperation missions, 
counterpiracy operations, the tactical recovery of a downed 
American aviator, and counterinsurgency operations on more than 
one front.
    So many have given so much. And your continued fidelity, 
our Congress, has provided us with our nations scarcest 
resources. General Amos and I, we are forever grateful.
    America's treasure doesn't know when or where they will be 
called next, but know that your Marines are ready to leave 
tonight.
    Today, just like the past decade, we are forward deployed, 
we are forward engaged, shaping, training, deterring, and 
responding to all manner of crisis and contingencies.
    Thank you for the opportunity to sit before this 
subcommittee.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Culberson. Thank you very much, Sergeant Major Barrett.
    Chief Master Sergeant Cody, we are delighted to have you 
here and recognize you for your statement, but I would be 
remiss if I didn't first recognize the presence of your wife, 
Mrs. Cody.
    We know who the most important member of the family is. And 
we are grateful to you, Mrs. Cody, your family, your sacrifice. 
All of the men and women in uniform, I know--but for their 
spouses, but for their families, they could not do what they 
do, and we are very proud of your husband and grateful to have 
you here as well, ma'am.
    Chief Master Sergeant, please to recognize you, sir, for 
your statement to the committee. Thank you.

            Opening statement of Chief Master Sergeant Cody

    CMSAF Sergeant Cody. Thank you, Chairman Culberson, Ranking 
Member Bishop, and distinguished members of the subcommittee, 
thank you for your continued interest in the quality of life of 
our military.
    It is my distinct honor to join my fellow senior enlisted 
advisers in representing the men and women who serve our great 
Nation. I sincerely thank you for the opportunity to represent 
America's Airmen today.
    As you mentioned, I assumed duties as the Chief Master 
Sergeant of the Air Force this past January. And yes, I am 
accompanied by the better half of the Cody duo, Athena.
    For us, this amazing honor is all about our Airmen and 
their families who serve and the mission we accomplish for our 
great Nation.
    As the Air Force's senior enlisted leader I intend to focus 
my efforts in three specific areas; deliberate development of 
our Airmen, caring for Airmen and their families, and 
establishing and maintaining a healthy work/life balance.
    Deliberate development of Airmen is an absolute imperative 
if we are to ensure the force remains prepared to meet current 
requirements and the challenges we will undoubtedly face in the 
future.
    Investment in education, training, and experiences of 
airmen is essential to meeting the demands of the combatant 
commanders they serve around the world. The success of your Air 
Force is clearly attributed to how well these Airmen are 
prepared to handle the tasks those commanders need them to 
execute daily.
    We will continue to assess what commanders require of joint 
force warrior Airmen, ensuring we have the plans and policies 
in place to meet future expectations.
    Caring for Airmen and their families is all about 
maintaining the source of air power. Our Airmen are the engine 
that keeps the force moving. And we rely on them to meet any 
challenge and overcome any obstacle. We must make sure we 
continue to give them the resources to meet these demands.
    The hallmark of our success has always been and will remain 
our people. The collective impact of over a decade at war with 
continued reductions in force size and increasing demands for 
our Airmen and air power has clearly stressed the force.
    I am particularly concerned with the suicide rates, failed 
relationships, domestic violence, financial hardships, and 
unprofessional relationships that in some cases have led to 
sexual assaults.
    As we move forward and our force changes, we must adapt 
programs and services to ensure we meet the needs of today's 
Airmen and their families.
    Directly connected to caring for our Airmen and their 
families is establishing and maintaining a sustainable work/
life balance which is critical to keeping Airmen and their 
families resilient.
    Resilient Airmen and families are capable of handling the 
many stresses that come with military life. We ask a great deal 
of Airmen. In addition to primary duties, Airmen must execute 
additional duties, stay fit, be up to date with their 
professional military education, and volunteer in their 
communities.
    To strike an appropriate balance, we will continue to 
examine exactly what we are expecting Airmen to do and advocate 
a healthy mix of work time and downtime. We will respect 
Airmen's time by eliminating unnecessary additional duties and 
employing technology wherever possible to minimize temporary 
duty away from home.
    We will stay committed to fostering healthy, safe, and 
productive work environments where innovation is encouraged. We 
will also continue our efforts to ensure family members who 
enable our Airmen's success are well cared for.
    Much has transpired in the 2.5 weeks since I submitted my 
written testimony. There is no question our Airmen are nervous 
and concerned with the current fiscal environment and the 
effects that this is having on our Nation and Air Force.
    The impacts of sequestration and the past 6 months of 
operating under continuing resolution authority are significant 
and detrimental to our Air Force and for all those serving.
    Our Airmen remain dedicated and committed to completing the 
mission around the world and ask for your leadership to ensure 
they are able to do so.
    We thank this committee for its continued support which is 
vital to our success. We rely on your efforts, actions, and 
legislation to protect our service members and veterans pay and 
benefits.
    We also appreciate the visits House members have made to 
support our Airmen in the field and our wounded warriors in 
healthcare facilities.
    Thank you again for your continued support of our brave 
airmen and their supportive families. I look forward to the 
opportunity to answer your questions.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Culberson. Thank you, Chief Master Sergeant.
    We are in the first of three votes. I believe there are 
probably 3 minutes left approximately. I think the best thing 
for us to do would be to recess. We will head up and vote, and 
as soon as that last vote starts, members, if you can vote and 
return, we will proceed with the questioning at that point.
    So if you would excuse us, gentlemen, committee will stand 
recessed.
    [Recess.]
    Mr. Culberson. Thank you very much. The committee will come 
to order. We are finishing up votes upstairs. The members will 
come in as they finish voting.
    We have heard your testimony, which of course will be 
entered into the record and deeply appreciate it. And one of my 
favorite parts of this hearing is the opportunity to ask you 
directly because you are so knowledgeable and have such 
terrific personal experience in the quality of life of our men 
and women in uniform, I would actually like to ask each one of 
you an open-ended question about in your personal opinions, 
what are the top three quality-of-life concerns for the 
enlisted personnel in your service branch?
    And if you could, talk to us about what you would like this 
committee to be sure that we remember on your behalf, on behalf 
of the men and women that you represent, that you would like to 
see us take care of in this year's military construction bill, 
remembering that we--I understand the Senate is indeed about to 
pass the appropriations bill.
    They are going to get that wrapped up, thank goodness. We 
have got a MILCON bill in there and a DOD bill, CJS, homeland, 
and agriculture. So we are going to take care of the CR at 
least for now, so that is going to be some additional load off 
your minds.
    But talk to us if you could in general about your top three 
quality-of-life concerns.
    And Sergeant Major Chandler, I would be happy to begin with 
you, sir. Thank you.

                        QUALITY OF LIFE CONCERNS

    Sergeant Major Chandler. Thank you, Chairman.
    You know, the question that you ask is actually a difficult 
one because each one of our programs, quality-of-life programs 
that we have in the Army, impacts people in different ways.
    So I will give you an example. There may be a young service 
member who is moving from Fort Belvoir to Fort Hood and they 
may just be starting off in their life and they may not have a 
lot of pots and pans.
    So in our Army, in our Army community services, we have a 
loan closet that provides that for them, and that may be very, 
very important to them at that time in their life.
    A more senior NCO may be interested in child care and 
access to child development centers and how long they may have 
to wait or make adjustments in their life, and that may be 
important.
    We think that within the Army we are actually doing pretty 
well with what our programs have been up until this point and 
are generally satisfied with our funding levels prior to where 
we are now with the continuing resolution and the 
sequestration.
    So speaking on soldiers' behalf, I think the most important 
thing is we need predictability that the programs that the Army 
has in place are available and accessible wherever they go.
    Without that type of flexibility, the young man may not be 
able to have the pots and pans, and he may have to go and 
unfortunately maybe get a loan or something from Army emergency 
relief in order to buy them, when all he needed was a just a 
period of time for his home goods to come to be delivered.
    And the child development center access may not be 
available, and if we have it, then that sergeant first class 
knows when he goes to work his family is going to be taking 
care of.
    So for us, as an Army perspective, we really need that 
budget that we are hoping that gets passed here momentarily and 
provides us some relief to be flexible and agile within the 
Army to be able to deliver the services.
    We think we are in good shape if we can get the flexibility 
and the resources that the budget has asked for.
    Mr. Culberson. Thank you, sir.
    Sergeant Major Barrett.
    Sergeant Major Barrett. Thank you, sir.
    And again, just like Sergeant Major Chandler said, it 
depends on who you ask and where you are when you ask the 
question, because it is not like the three of us hadn't 
traveled around the country and visited our forces and asked 
the very question we knew you were going to ask us today.
    And I would start off by telling you that God bless our 
Marine martial spirit and the genuine concern for their 
families that they have, because the three things that came up 
most common as I traveled the service and traveled the force, 
was they wanted to know how our readiness was going to be 
impacted.
    The second thing that was the most important to them when 
you looked at a young family or you looked at a young female 
Marine and she is standing there and she is 7 months pregnant 
and the very first thing out of her mouth was, ``How is this 
going to impact family programs?''
    And one question that was a common and steady-state 
question, no matter where you went or who you talked to, what 
rank, age, or gender the person was, they just wanted to know, 
``Where and when and who are we fighting next?''
    So when you look at the top quality-of-life issues, 
speaking on behalf of our Marines, it is those warfighter and 
family service programs that have kept us whole over this past 
decade of fighting.
    CMSAF Cody. Mr. Chairman, it is tough to follow these two, 
obviously, because they really have articulated well what I 
think all our servicemen and women and their families are 
concerned with at this current juncture in our Nation's 
situation.
    So I have asked those same exact questions, and it is 
somewhat encouraging and disheartening at the same time, when 
you--you know shortly after assuming this position I traveled 
over into the Gulf region with the Chief of Staff, and we spent 
time with thousands of our Airmen as well as other service men 
and women serving in that area.

                       IMPACT OF FISCAL SITUATION

    And their number one question was the impact of our fiscal 
situation back at home and the impacts it would have on them 
directly executing the war effort, and then on their families 
back home. What would be left?
    So it is difficult, all of those things, and I think well 
said in the fact that where you sit is where you stand. So any 
one of those programs to a given individual is the most 
important program that we could advocate for at a given time 
depending on your situation.
    And again, I think we do appreciate the efforts of this 
committee over time to support us on the broader aggregate 
sense of those things that we have prioritized as Services to 
put the investment into to sustain that commitment to our 
Airmen and their families.
    But in the immediate, we need a budget and we need 
flexibility within that budget to make the decisions to 
maintain readiness of the force.
    Make no mistake about it, the service men and women who put 
this uniform on every day are here to serve and their families 
support them in their service. We have to give them the means 
to do that.
    Mr. Culberson. Thank you, sir.

                           INADEQUATE HOUSING

    Let me ask one question about housing, and then I will pass 
to Mr. Bishop. If I could ask each one of you to talk about 
inadequate housing--construction--deficit--and then talk to us 
a little bit about the----
    CMSAF Cody. We have very few Airmen that are living in what 
we would consider inadequate housing. We certainly have a 
prioritization list within our single dormitory facilities for 
our single airmen where we have some, those that must be 
upgraded or new construction in place.
    A couple of locations overseas that have impact that we 
need to get after right away, and they are our immediate 
concerns within what we are requesting under MILCON, but we 
have actually done fairly well when you consider the efforts in 
what privatization of housing has done for our Air Force.
    I mean, it has actually been a great effort. It has given 
us housing that we would otherwise have been unable to have in 
such a short period of time available to our Airmen and their 
families. So I think that is a success story.
    But, you know, again, it is an incremental investment plan 
that we have, pick the location and how we are prioritizing 
where we will invest or where it is best to divest and look for 
other options for our Airmen.
    Mr. Culberson. When do you expect the Air Force to 
eliminate the deficit of adequate housing and finish building 
out?
    CMSAF Cody. The Air Force currently meets OSD's goal for 
adequate military housing and expects to continue meeting that 
goal through investment in government owned homes and execution 
of housing privatization.

                        MILITARY FAMILY HOUSING

    Sergeant Major Barrett. Well, sir, 75 percent of our 
families live off-base. We have 24,000 homes worldwide, 99 
percent of our housing is the public-private venture. We 
couldn't be happier with the services that they provide us. 
They are absolutely wonderful people.
    They don't leave our families waiting to have any services 
done when things go wrong. And I can't give you the exact 
number of inadequate housing that we have and I have been to 
every single base, station, installation across the United 
States and overseas, and----
    Mr. Culberson. Do any stand out in your mind, that you 
recall?
    Sergeant Major Barrett. No, sir.
    Mr. Culberson. I know we got the BEQs----
    Sergeant Major Barrett. Yes, sir. Yes, sir, and you know, I 
think BEQs is a different question, so I didn't know if you 
wanted us to elaborate----
    Mr. Culberson. How is that going? We fully funded that for 
you in previously years' bills----
    Sergeant Major Barrett. Sir, BEQs are going up exactly as 
planned. And even with our planned drawdown to the eventually 
182,100, we will just be under 100 percent for putting heads to 
beds in the United States Marine Corps.
    But to use a phrase that I used last year and I heard it 
again this year as I traveled around, the newest of all of the 
BEQs that our Marines are living in, they don't even call them 
barracks anymore. They call it their community because of just 
how wonderful they are and all the additional resources that is 
provided to them.
    Mr. Culberson. Thank you, sir.
    Sergeant Major Barrett. Yes, sir.
    Mr. Culberson. Sergeant Major Chandler.

                                HOUSING

    Major Chandler. Sir, I appreciate the question. We have had 
a--I think a categorical success with our Residential 
Communities Initiative in providing quality homes for our 
soldiers around the United States.
    It is amazing when you see where we have come since the 
mid-1990s of when Congress enacted the Residential Communities 
Initiative, amazing success story.
    We have very, very few people, families that are in 
substandard housing. And what a lot of our partners are doing 
is either not charging the full BAH for those that are not 
renovated fully, you know, fully satisfactory. And we also have 
a build-out plan to either demolish, renovate, and replace 
those homes that are less than what they offer for new 
construction. So we are doing really well there.
    I would tell you, though, that sequestration does have an 
impact on us in our housing services office, which are the 
staff that support helping soldiers to find facilities off 
post, and that is a challenge for us.
    You know that there may be some predatory practices with 
off-post lodging accommodations and making sure we have good 
quality of life, so that is a concern for the Army.
    As far as our barracks, our single soldier quarters, again, 
we have had tremendous help from you and this committee over 
the years we have done an amazing job with barracks.
    I am sure all of us when we lived in the barracks, I was--I 
lived three to a room and it was a two-man room, and we liked 
it. Now we have set the standard that is awesome. It is really 
amazing what we have provided.
    We do have challenges for a sustainment, restoration, and 
modernization, however. And as sequestration has had a huge 
impact in those abilities and so what we are only going to do 
for the Army is, is to take care of life, health, and safety 
issues. So maintaining the new facilities is going to be at 
risk for a period of time until we can get through this.
    So we have invested billions of dollars on new facilities 
and we are at the place now that if something happens, we can 
only take care of life, health, and safety, and we will defer a 
lot of that maintenance until we can move through this 
challenging time fiscally, and that is a challenge for us.

                SINGLE ENLISTED QUARTERS CONSIDERATIONS

    Mr. Culberson. And you are in the process of segregating on 
the single--or the barracks for the single members, men in one 
and women in the other----
    Sergeant Major Chandler. No, sir. They don't share a room 
together, but we have----
    [Laughter.]
    For obvious reasons--they don't--anyways.
    Mr. Culberson. That is kind of a big deal, what are you 
going to do?
    Sergeant Major Barrett. What we do now----
    Mr. Culberson. Living quarters, that is a real problem.
    Sergeant Major Barrett. What we will----
    Mr. Culberson. We are short of money.
    Sergeant Major Barrett. Yes, sir. What we will do now is 
the same thing we have been doing. So we have a facilities 
manager, in this case a noncommissioned officer, within each 
one of the brigades that assigns quarters barracks to our 
single soldiers.
    And what happens is when a young man or woman enters into 
the unit, they will be assigned a space. If they are female 
soldiers, we generally pair females with females. We may 
provide a single room for a female if there's no other females 
in the facility.
    We also do things like smokers. You know, we look at 
whether or not people are smokers or not and try to accommodate 
non-smokers with non-smokers and smokers with smokers.
    So we have a system in place----
    Mr. Culberson [continuing]. And all our soldiers behave 
appropriately.
    Sergeant Major Chandler. But we also monitor that. So in 
the Army we called them charge of quarters, and their 
responsibility is to check on and monitor standards and 
discipline within the barracks and to report, you know, things 
that are not the way they are supposed to be.
    We have a very effective program with that. We think we do 
pretty well.
    Mr. Culberson [continuing]. Mr. Bishop.
    Mr. Bishop. Thank you very much. I am going to turn my 
attention to--I am going to put on my hat as the co-chair of 
the Military Family Caucus.
    Service members, we all know, will not see a reduction in 
income as a result of the sequester and--military personnel 
accounts are exempt from sequestration but many of the families 
rely on, as you alluded, to quality-of-life benefits.
    For example, the readiness center, sexual assault 
prevention, response programs, suicide prevention programs, 
substance abuse education centers, and the teachers at the DOD 
schools both domestically and abroad will be subject to the 
civilian furloughs.
    So starting with the Army and going to each of you, you 
indicated, each of you, that you talked with your service 
members and they expressed concerns about it, but my questions 
to you is do you expect major disruptions in these programs as 
a result of the furloughs caused by sequestration?

                           MAJOR DISRUPTIONS

    Sergeant Major Chandler. Yes, sir. From the Army 
perspective, we do believe that we are going to have 
disruptions.
    And I will give you a very easy example. So I am currently 
being treated for mild traumatic brain injury. I go to Fort 
Belvoir. Speaking with my doctor, who's the head of the clinic, 
now they have lost personnel who were contract employees that 
helped in speech therapy and occupational therapy and so on.
    And when I asked him, ``Well why? What is the problem?'' He 
said they are concerned about their ability to stay on board as 
contract employees, and they are looking for another 
opportunity that is going to provided them predictability.
    So what does that mean? That means the access to care and 
appointments are going to be impacted. They already are being 
impacted.
    We are going to look at a series of ways within the Army 
with furloughs where some places may close up for an entire 
day. Some places will have reduced manning across the entire 
week.

                            FURLOUGH IMPACTS

    Any one of those circumstances is going to hinder the 
delivery of services in a way that we have envisioned and have 
provided over the past several years.
    So it is going to have an impact on our Army, and it is 
going to impact the quality of life.
    Second and third order of effect. You know, if you are 
going to close a child development center for a day a week, for 
instance, and you have a dual-military couple, what are you 
going to do?
    Well, the command is more than likely going to look to take 
care of that soldier or soldiers, and say, ``Okay, look, we are 
going to let you not be at work today because of the 
circumstances for the Army.'' Well, that is a loss of 
productivity.
    So that--it all impacts in one way or another. You may not 
see it directly in your face, but it can be very insidious and 
impact across the entire Army and its radius.
    Mr. Bishop. Sergeant Barrett? Sergeant Major Barrett, 
excuse me.
    Sergeant Major Barrett. Not a problem, sir. It is still a 
compliment. It is still a compliment. If you would have called 
me Mr. or something, then I would have taken offense because 
you would not have recognized me as someone who served this 
nation differently. So it is still a compliment, sir.
    Wonderful NCOs in all of the branches of the service.
    Mr. Bishop. Hoowah.
    Sergeant Major Barrett. Exactly what Sergeant Major 
Chandler said. And there is one other thing I--you know, I 
wrote down a couple notes as he was talking to jog my memory.
    Any actions that impact our civilian Marines will directly 
impact our capability to provide essential support services to 
Marines and families. And I wrote down behaviorialists, for 
those wonderful people who take care of children that have some 
type of autism spectrum disorder or ADD or something of that 
sort, that is just less care. That is less people who are 
trained to help raise our families is impacted.
    So I add to Sergeant Major Chandler's perfect comments.
    Mr. Bishop. Chief?
    CMSAF Cody. Thank you. Again, difficult to follow the 
Sergeant Majors, but I will echo that I think we have to be 
very concerned with what--I am not sure that there are going to 
be--you know, it will not be an uninformed consequence of these 
actions. I mean we are talking about them, so I think we are 
informed about them.
    The fact is, is we will take a large percentage of our 
civilian workforce, civilian Airmen, out of play for the Air 
Force to the tune of approximately 180,000. That will impact 
our ability to do what our Nation needs us to do. It will 
impact every single Airman and their family.
    Pick the location and how that organization has been 
structured, it could be draconian. Others, maybe not so much, 
so it is difficult to say. And that is the greater concern is 
we just don't know in some areas. But I know our Service Chiefs 
have been very clear in the preceding months to sequestration 
and through that we are very concerned with this.
    I am very concerned with the mental health provider 
availability when Airmen are going to be in need of assistance 
and that may not be available.
    Mr. Bishop. I have one follow up. The reports on 
sequestration have alluded to the high percentage of military 
spouses who are also civilian employees of the federal 
government or they are employees of DOD contractors.
    Again, the military personnel accounts are exempt, but the 
families who have federal employees as spouses will see their 
incomes reduced in all likelihood.

                   SPOUSES FURLOUGHED UNDER SEQUESTER

    So starting with the Army, can you estimate how many 
families in your respective services will have spouses who will 
be likely furloughed under the sequester?
    Sergeant Major Chandler. Sir, we are challenged with the 
contractor piece. It is hard for us to know how many of our 
family members are employed by contractors.

    All appropriated fund civilian employees of the Army, with very 
limited exceptions (deployed Civilians in a combat zone; non-
appropriated fund employees; OCONUS foreign national employees; etc) 
are expected to be furloughed for no more than 22 non-consecutive work 
days beginning no earlier than 1 April 2013 and ending prior to 30 
September 2013. The Army can only track hiring information of family 
members or Army spouses if they are hired under a family member 
appointment or spouse appointment. To date, we have approximately 4,000 
employees that are in these categories. Please note that this is not 
reflective of all spouses or family members that could be employed by 
the Department of Army under a different appointing authority.

    From a federal government employee perspective, we believe 
that number is somewhere around 40,000. We are not as well 
defined on that as we probably ought to be, and I can take that 
question for the record and get you a detailed number.

    Through March 2013, the DON has hired 1,844 military spouses, 297 
of those spouses are veterans. Since the DON utilizes numerous hiring 
and appointing authorities to employ individuals, we are unable to 
confirm how many military spouses we employ. The DON is making every 
effort to minimize and mitigate the impact of the required budget 
reductions, the majority of which resulted from the triggering of 
sequestration on 1 March 2013. These reductions adversely affect 
programs across the enterprise.

    Mr. Bishop. Thank you. That would be helpful.
    Sergeant Major Barrett. Sir, same. I could not give you the 
exact number, but I can tell you that we have 93,000 married 
Marines running around the Marine Corps today. And I know a 
great number of them are employed, but I could not give you an 
exact number how many are employed federally versus those who 
have particular jobs out in the 'ville or on bases. So I will 
take that as a matter of record as well, sir.

    If furlough occurs, employed military spouses will experience one 
day per week across 14 weeks in a furlough status, suffering a 20% 
reduction in their pay during that time, along with others in our 
civilian workforce who work in positions not excepted under the 
furlough. As of 28 February 2013, the Marine Corps has 1,678 civil 
servants who are also dependents of military personnel.

    CMSAF Cody. Sir, as well, I will have to find out the exact 
number of how many that we have that will be impacted those 
that are serving with the federal employee spouses.

    Currently, there are 13,070 AF military spouses who are AF civilian 
employees of the federal government working in various positions world-
wide and the majority will be affected by the furlough as very few 
positions are excepted.
    We are deeply concerned about the potential impact of furlough on 
our military families. Many of our military spouses are federal 
employees, whom not only are providing a valued service on behalf the 
nation, but are contributing to the family budget. As there may be 
financial hardships imposed on our military families, we are postured 
to have resources available to mitigate the difficulties due to loss of 
income. Our Airmen and their families will have access to Airmen & 
Family Readiness Centers and Military One Source, both providing 
accredited financial counselors to assist with financial budgeting, 
credit management or crisis referrals. Also, the Air Force Aid Society 
is available to provide short-term interest free loans or grants to 
assist as needed.

    Mr. Bishop. But you do have a substantial number of spouses 
who work for the federal government in civilian employment?
    CMSAF Cody. Absolutely.
    Mr. Bishop. So if they are furloughed, that obviously will 
impact the family's income.
    Sergeant Cody. Yes, sir.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much.
    I am going to recognize the congressman representing Fort 
Hood, Judge John Carter.
    Mr. Carter. My pleasure, Mr. Chairman.
    Welcome. I haven't missed this subcommittee for 8 years. I 
wouldn't miss this particular gathering--thank you for the 
things you tell us over the years and the insights you have 
into your personal charges and reminding us of things like day 
care and medical treatments and all the other issues we have 
been able to address.
    We are at a difficult place, where our services have 
already agreed before we ever started talking about CRs or 
sequester to reduce the force. All of our services got together 
and agreed to a reduction in force.
    So this is multifaceted reduction, what we are dealing 
with. The CR kept us stagnant for long periods of time.
    I hear the same thing everywhere, every time. And it is 
really great that you all three stated the same thing. First 
mission is a trained warrior. You all have said that.
    We must have trained people in the field to fight our wars. 
So we have to ensure training's the most important thing we do. 
If we are not able to send the best military on the face of the 
earth into the battle, we lose--so we do that. Program suffers 
as a consequence. And, you know, we just had the big blow-up--
Ft. Hood on the issue of tuition assistance.
    Tuition assistance, a program that is utilized very, very 
heavily; 13,500 people are affected--in the Ft. Hood general 
area. It is a big deal.
    When I talk to the people who are in charge, they say we 
want an educated force, but we have got to have a trained force 
first. So we have to make those decisions.
    Many of you have to make those decisions with commanding 
officers, and I thank you for being willing to make them.
    I think there is some good news on the horizon, and I think 
we are making this perfectly clear. I believe that our DOD and 
our MILCON bill will both be appropriations bills.
    Those bills do give you that flexibility that you do not 
have under a CR to make program changes. And I think that is 
the key of why the chairman on the House side launched this 
idea of passing certain appropriations bills coupled with the 
CR.
    The fact that you will be able to move money around to meet 
those needs, that sequester was a bad idea, but we got it.
    So what about the flexibility? Make the assumption, as I 
am, we are going to get at least two appropriation bills 
providing flexibility--between programs. How important is that?

                           BUDGET FLEXIBILITY

    Sergeant Major Chandler. Yes, sir. Flexibility obviously is 
one of the things that we need in the Army. Obviously, we would 
like a budget. That is the best deal.
    If we don't get that for whatever reason and we have some 
more additional flexibility through another continuing 
resolution, that will help the Army, as I am sure will the rest 
of the services.
    So it will allow us to do things to reassess our priorities 
list and provide the resources that we can move from one 
account to the other to be able to fully source of those that 
need it the most. And readiness is our most important concern 
in the Army.
    As the chief has testified recently that, you know, right 
now, where we are at, we are only going to be able to provide 
for those who are currently deployed and the next set of 
deployers. And that is a big concern for the Army.
    You know, for our other nondeploying units that still need 
to maintain readiness, we are not going to be able to provide 
anything other than the lowest level of individual and 
collective small unit--and I am talking anywhere from one 
person to maybe 40--of training and--and frankly that is not a 
level of readiness that we are comfortable with. As a matter of 
fact, we are uncomfortable with it.
    And so, that forces the chief and the secretary to make 
very difficult decisions, as you have articulated.
    So, yes, the CR is going to help us or the budget obviously 
will make the best of a bad situation for everybody.

                   IMPORTANCE OF APPROPRIATIONS BILL

    Sergeant Major Barrett. Allowing us to move money around in 
the programs is all we have ever wanted. And I heard that come 
out of the hallways not too long ago. Because when you sit back 
and look at it, and sir, you talked about it, it is all about 
mission accomplished--you know, mission first, but it is people 
always.
    And when you look at the five pillars of institutional 
readiness, high-quality people, and that is finding them, 
recruiting them, and retaining them, and then it is unit 
readiness and not just in the short-term unit readiness. We 
need to have long-term unit readiness so that we can pick up 
and move if we have to move. If someone threatens our 
liberties, we are able to go in there and put a boot in their 
neck.
    And then you have got the equipment modernization. Then we 
are talking about infrastructure sustainment. And Sergeant 
Major Chandler mentioned it earlier when he was talking about 
barracks and housing, and he was talking about facilities 
sustainment, restoration, and modernization. Those things are 
all dollars.
    We know where we need to put our money. We know what is the 
priority. Give that to our service chief to make those 
decisions, and that is all we have really ever wanted.
    And then obviously the fifth most--and one of the most 
important elements of the pillars of readiness is providing 
capability and capacity to those geographical combatant 
commanders when they need us to do all those important missions 
around the globe, whether it is helping people or just running 
some type of regional or theater security cooperation mission 
to partner up with a friend somewhere else. So that is how we 
feel about it, sir.
    CMSAF Cody. Thank you. I think, again, flexibility is 
essential, and it is--really, every day that we don't have it, 
it makes it even more difficult whatever flexibility we do 
receive with an appropriation or some type of budget that we 
can operate in.
    The challenge that we are faced with in this, though, is we 
are half way through this fiscal year, and the decisions we 
will have to make to maintain readiness, to continue to 
accomplish the mission that we are asked to do, will not be 
popular with everybody.
    And that is probably a greater challenge for us, trying to 
convince everybody why the people that you have put in charge 
to run your militaries that I would hope you have faith in will 
do the best by the nation that they can, allow them to do that.
    Because every time we come forward and say, ``This is what 
we need to do,'' but that doesn't align with something, it 
creates a second- and third-order affect for us that is 
untenable at times.
    Mr. Carter. That is a very good statement. And I appreciate 
that. I appreciate what you have to say.
    Those of us who are appropriators in the House, we have 
done an appropriations bill for every subject that we have to 
deal with. Every year we pass an appropriation bill that is 
looking at your needs--the needs, based upon the money we have 
at the time. We have written a bill that funds our military.
    Then we go--to the other side of this building, and we are 
stuck with a C.R., which hurts because we are not adjusting to 
the year we are dealing with. You are going back to the 
previous year, and then the previous year before that.
    That is why I say, passing an appropriations bill rather 
than a C.R. as it relates to the military I think is going to 
be a much appreciated, but the sequester is still going to be 
there. But at least you will be dealing with the the issue in 
the House of Representatives, but this will be a good move for 
your services at this present time. And that should be, I 
think, a better way to move forward, not perfect, but not as 
bad as it could have been.
    Thank you for what you do. You are the backbone of our 
national defense, and we appreciate you.
    Mr. Culberson. Thank you, Judge.
    Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Chairman.
    And thank you, gentlemen, for your service, and thank you 
for coming today.
    I am really sorry to hear about the Marines that were lost 
in the depot accident, and thinking about their families and 
about the shock of getting that news.
    You know, you are here under stressful fiscal times. And to 
me, it is a tragedy that we as a professional Congress have put 
you in that situation. I really want to apologize. I think our 
institution has failed your institution.
    Sequestration is only a decision, and it was a decision 
that Congress made. They didn't have to make it. There are ways 
of balancing budgets.
    I have been in elective office for 38 years, and I have 
done budgets at the local level, budgets for the nation-state 
of California, which is, next to the federal budget, probably 
the biggest budget in the United States. We have never done 
budgets without revenues.
    And we have that ability. But we have let this nation down, 
this institution, and now, we are talking about disaster 
recovery, how are we going to deal with cuts that go back to 
2012 and in some instances beyond that.
    And then this whole idea of sequestration and furloughs, it 
wasn't necessary. Sequestration, budgets are only a decision. 
And we decided to make the wrong decision, and now we are 
trying to work our way out of it.
    And, yes, as long as it is the law, we have to stick with 
it. And I hope I am here to see if we can change that law.
    The thing that really strikes me is the stress that we have 
put on this nation, being at war for a record number of years. 
The cost of that war fiscally has really been stressful for our 
country. The cost to the men and women in uniform and service 
to their families has been shocking.

                           SUICIDE PREVENTION

    And one of the things that is most shocking is suicide 
rates. Suicide now in the military is the highest it has ever 
been. It does not appear that combat experience or post-
traumatic stress disorder is related necessarily to the 
suicide. A recent report on the suicides in the National Guard, 
which has the highest rate of all Army branches--[Phone 
rings.]--that is my daughter. She wants some money. [Laughter.]
    But they found that there was no conclusive correlation 
between active service and suicides. And 90 percent of the 
cases in the National Guard study were taking place while they 
were on civilian status, which is to say outside the military 
atmosphere. We know that these suicides--this sort of gets into 
a tricky issue that we are talking about--guns were involved in 
61 percent of the suicides in the military. Of that 61 percent, 
three out of four personnel, were personal firearms.
    It would seem to me the ability to identify at-risk service 
members and then to remove the ability of suicide--in this 
case, the firearm--is a critical step.
    Absent a national authorization for any kind of registry, 
which I don't think we are going to get, in the military what 
steps can the services take to implement such a requirement to 
mitigate suicides, which are clearly such an epidemic? Do you 
have any thoughts about that?
    Sergeant Major Barrett. Sir, are you talking specifically 
about gun control specifically?
    Mr. Farr. Well, personal weapons that service members have 
who may be service members at risk.
    Sergeant Major Barrett. Short of taking guns out of 
everyone's hands, sir--first of all----
    Mr. Farr. But we are not talking about everyone. We are 
talking about people that are under your----
    Sergeant Major Barrett. At risk.
    Mr. Farr [continuing]. Are under either your command or 
your personnel. Do you discuss these issues?
    Sergeant Major Barrett. Sir, for example, in the United 
States Marine Corps, one of the things we have is we have force 
preservation councils corps-wide. And it provides the 
commanders an opportunity to determine and scale every single 
one of the Marines to determine who is at risk and who is not 
at risk, and then to put certain measures in place to mitigate 
or prevent something bad from happening.
    And, you know, leadership is absolutely--engaged. 
Leadership is at the front of stopping some of these terrible 
things that are happening inside of our ranks.
    You know, suicide is not the only thing happening inside of 
our ranks. There are many societal issues, societal plagues, if 
you will, that are inside the ranks. And it doesn't matter at 
what level. There are drugs, alcohol, domestic violence, 
criminal mischief, sexual misconduct, hazing, operational 
stress, force preservation deficiencies, and suicide.
    We could talk about all of them, but we have put things in 
place at every single one of our senior leadership levels, and 
all the way down to the battalion level, we have force 
preservation councils that determine who is at risk, who is not 
at risk, and things that we can do to mitigate anything bad 
from happening.
    So we rely heavily on our engaged leadership to determine 
who is at risk and who is not at risk.
    Mr. Farr. Is there any counseling given to service men and 
women--we have 61 percent of the deaths caused by their 
personal weapons. Is there any counseling given to the presence 
of those weapons that could be high risk for that individual?
    Sergeant Major Barrett. There is counseling, sir, aboard 
all of our installations. And I won't speak for other services, 
but, absolutely, so there is counseling available for 
everybody----
    Mr. Farr. What kind?
    Sergeant Major Barrett. Well, we have a behavioral health 
integrated network that has integrated combat operational 
stress controls, operational stress control and readiness, 
suicide, substance abuse, family advocacy programs to better 
synchronize our efforts in research, resources, to set policy, 
to establish training for prevention and treatment.
    So holistically, we have behavioral health programs that 
cover down on all those things that are plaguing our service, 
sir.
    Mr. Farr. This is a big issue in my district, how we do 
suicide prevention. And I just thought that we might pursue 
private personal weapons, firearms that service members have, 
particularly for those who may be at high risk. I think that 
some counseling would be necessary.
    Let me ask you another question. This one will make you 
happy. I represent the Defense Language Institute in 
California. And the Marine Corps sends young recruits, you 
know, entry-level service personnel to get training and also 
bring them back for a refresher and learning second and third 
languages, and officers attend the school, as well, but 
primarily enlisted.
    The Naval Postgraduate School has an FAO program, foreign 
officers refresher training course that seems to be very 
popular, modeled after the Army that the Navy is now 
implementing.
    And I wondered, Sergeant Major Barrett, if the Marine Corps 
has a language capability that they are implementing at the 
unit level. It looks to be very innovative and promising for 
the Pacific rebalance and for our national security strategy.

                       FOREIGN LANGUAGE PROGRAMS

    I wondered what your service is doing to replicate what the 
other services are doing to replicate a similar ability at the 
unit level for your role in building partner capacity in the 
Pacific and elsewhere.
    Sergeant Major Barrett. Yes, sir. First, I will talk to 
exactly what our--we call it our FAS/RAS program, which is 
equivalent to the FAO/RAO program for our officers, and what it 
does is it provides language and regional expertise and 
cultural skill sets to the Marine Air-Ground Task Force.
    We presently have been--we are into our 13th month already 
with the 27-month beta test. And we just received our first 
Marine home who went out as a FAS. He was out with the 24th 
MEU. I have read all the after-action reports. And he was 
absolutely integral in the identifying and selecting and 
educating others on international affairs that covered down on 
tactical, operational, strategic-level thinking. He helped to 
support joint and combined staffs and other interagency 
organizations.
    And it was all for the purpose of--in order to support the 
Marine Air-Ground Task Force in planning, in operations, 
security cooperation, to intelligence efforts, to incorporating 
all those language, regional expertise, and cultural skill 
sets.
    We have one--or three right now who are currently deployed 
with the 15th MEU and the 31st MEU. Two have just completed 
language, their language training, and are being assigned to 
our MARSOC command and to our Marine Corps Security Cooperation 
Group. And three just finished regional travel in Africa and 
the Middle East.
    It is an absolutely wonderful program. They stand shoulder-
to-shoulder right there with our forward area officers and our 
regional area officers. And they make a difference.
    Mr. Farr. Is the Army and Air Force replicating or 
interested in replicating this?
    CMSAF Cody. The Air Force has a program we call LEAP. It is 
Language Enabled Airman Program, and they enroll through at Air 
University. And they get a similar type of training 
indoctrination, and then we will pair that with a requirement 
in a particular theater down the road. So similar in context.

                         PILOT LANGUAGE PROGRAM

    Sergeant Major Chandler. Sir, we have a program that is a 
pilot right now. It is our Foreign Area NCO program. It is 
being used in the European Command right now by the United 
States Army Europe. We have identified individuals. We have not 
provided the language training at this point. We pair them with 
the foreign-area officer. And their focus is really on 
individual and small-unit training and then noncommissioned 
officer development.
    That pilot will be concluded by the end of this year. We 
will provide that information to the Army G-3 as part of their 
FAO program and look at where we need to assess what gaps came 
out of this and where we need to expand the program. So initial 
reports are, it has been extremely successful for what we 
tailored it to do in the first place.
    We specifically made the call in the language because we 
wanted to get the folks out there really quickly and start to 
assess--do a needs analysis, basically; what do we additionally 
need to be able to have these folks function at a higher level?
    I am assuming the results of that will be out in the fall, 
and we will be able to move forward. I am not going to say that 
we need language yet, because that is a little bit ahead of the 
report, but if we do, I am sure that we will look at where we 
are going to be able to deliver that and how we are going to do 
that.
    Mr. Farr. That would be very interesting.
    And this committee has always been interested in this. One 
thing we all realize is that if we all are going to have a 
smaller military, we have got to have a smarter military. And 
one way of getting smart is to learn the languages and cultures 
of the world we live in and the world we have to deploy in.
    And we know, when we can communicate with the host country 
nationals, that you are a heck of a lot better off. So I hope 
we move in that direction.

                           SUICIDE PREVENTION

    Sergeant Major Chandler. Sir, if I may, can I follow up on 
your question about suicides?
    Mr. Farr. Yes, I would appreciate that.
    Sergeant Major Chandler. So, within the Army, you know, we 
have got more control with individuals that live on-post versus 
those that live off-post. And we have the ability to secure 
weapons that are personal weapons that someone has that lives 
on-post inside of an arms room or another storage facility.

                      FIREARMS--SUICIDE PREVENTION

    Mr. Farr. Okay. What are the rules? Are they allowed to 
have their own personal weapons or firearms? Or do they have to 
have them locked up? What is the requirement?
    Sergeant Major Chandler. Yes, sir. The soldier has to 
register their privately owned weapon with the provost marshal. 
They have got to maintain specific securities with the weapon. 
We highly encourage them, and make the armorer or the person 
that is responsible for that facility available if they want to 
draw their weapon out.
    The challenge, though, really becomes to our off-post 
persons and our ability to be able to house their weapon. We 
provide that opportunity for them. We highly encourage it, but 
we cannot make a soldier put his weapon in the arms room, 
unless he has been identified as a high-risk behavior, and then 
we can require them to live on-post.
    And if we choose to go that route, then we have some 
additional authorities that we can use to be able to bring the 
weapon into the arms room. And that is kind of where we stand 
right now. If we identify somebody as a high-risk soldier, we 
are going to counsel them, in line with what their--possibly 
from a behavioral health perspective or other issue that is 
going on in their life, and then we are going to talk to them 
and highly encourage them to get their weapon in the facility. 
And we are very committed to that.
    You know, we have a lot of challenges with suicides in our 
Army, as you well know. We are not satisfied with where we are. 
But as Sergeant Major Barrett said, it really starts with 
engaged leadership. And at the end of the day, a soldier--if he 
is determined to take his life--will find a venue to do that.
    Our focus is on preventing that before it happens by 
leaders being engaged in their soldiers' lives. And we are 
starting to see some success in that area.

                              LEADER BOOK

    One of my focus areas as the sergeant major of the Army is 
this thing called a leader book, and it is really a book that a 
person will have, a leader will have that would state, hey, 
here is what I know about this soldier, and it is an 
inspectable item, so their leader can say, ``Tell me about 
Chandler.'' ``Well, Chandler is, you know, $5,000 in debt and 
his car is on cinderblocks in the yard.'' ``Okay, we got a 
problem. We need to take some action. Let's see what is going 
on with Chandler's life.''
    That engagement may be the difference. And if we focus on 
that, then we can get them to the help that they need. And that 
is where I think we are doing a better job than we have in the 
past. Results will be proof in the pudding. If we start to see 
a reduction in high-risk behaviors in our Army, we think that 
will be a contributing factor.
    Mr. Farr. Well, I hope you are successful. Okay. Okay. The 
Air Force?
    Mr. Culberson [continuing]. Really important--suicide----
    CMSAF Cody. So in the interest of time, Mr. Farr, the Air 
Force does have an 11 element program that is widely 
recognized, and we are having great success with it, broken 
down into three categories. It will be leadership and 
community, education, and protection for those under 
investigation in, you know, the 11 sub-areas that fall under 
those categories.
    I can provide that in a written response to you, but we 
absolutely deliberately in that leadership involvement piece 
either they know if one of our Airmen own a weapon or we 
inquire once we think they are at risk and take the appropriate 
action to either take it away if they are on installation, like 
the sergeant major articulated, or ask them and encourage them 
voluntarily to release it to us if they live off installation.

    The critical link to taking any action to remove access to 
firearms is to first identify those who are at risk, and then 
to take appropriate action. Removing an individual's access to 
means of self-harm, or ``Means Restriction'', is important when 
dealing with those who are distressed. Identifying those at 
risk is part of the training received by every Air Force Airman 
as part of our annual suicide prevention training. So, really 
every Airman is a part of this process. Our mental health 
providers are also key players in the identification process 
and work directly to advise commanders on the status of the 
personnel at risk under their command.
    We take to heart the safety of our Airmen and family 
members with the understanding that this is a central 
obligation of command authority, and is top priority of senior 
enlisted members and unit commanders. If a commander has family 
advocacy or suicide concerns for an individual, they have 
unique authorities to either temporarily, or if necessary 
permanently remove access for individuals under their command 
to government issued service weapons. In some cases they can 
also confiscate personal weapons stored in government owned 
facilities. Further, possession of privately owned weapons is 
forbidden in the majority of Air Force facilities.
    Commanders who have concerns about the well-being of their 
members who live off-base or in privatized housing are advised 
to seek the advisement of their local judge advocate team on 
options to direct the placement of members at risk of suicide 
to a safe and secure environment, separating them from weapons 
which can be used to harm themselves or others The FY 13 NDAA 
also provides commanders and health professionals the authority 
to inquire whether a military member plans to acquire, or 
already possesses or owns, a privately-owned firearm, 
ammunition, or other weapon, if such health professional or 
commander has reasonable grounds to believe the military member 
is at risk for suicide or causing harm to others. Also, 
commanders may refer to local or state laws on the ability for 
local law enforcement to collect and secure privately owned 
weapons.

    Mr. Farr. I am encouraged to know that. And I hope that 
under sequestration efforts to prevent suicides aren't 
impacted.
    Thank you, Mr. Chairman.
    Mr. Culberson. You bet. Thank you, Mr. Farr.
    Critically important issue. I know there will be a number 
of written questions, as well, on that subject and also what 
you are doing to help identify soldiers, airmen, Marines, 
sailors with post-traumatic stress disorder, a deep concern, as 
well.
    We are moving into this series of votes here, so we will 
probably adjourn after this round, submit additional questions 
in writing, but I want to recognize my good friend from 
Mississippi, Mr. Nunnelee.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    Can you just briefly describe to me your planning for 
sequestration, specifically the 6 months leading up to that--to 
sequestration?
    And I am also interested to know, given the dollar amount 
that we had to implement under your command, do you believe we 
made the right decisions in what was cut? Or would you have 
preferred to see it cut to achieve the same dollar amount in a 
different way?
    Sergeant Major Chandler. You want me to go first?
    Mr. Nunnelee. That would be fine.

                      SEQUESTER CUTS--FLEXIBILITY

    Sergeant Major Chandler. Okay, sir. To the question about 
cuts, if cuts needed to occur, I think that the services should 
have had the flexibility, given the requirement to determine 
where they needed the cuts, instead of across-the-board cuts, 
at least from an Army perspective.
    The inflexibility that we continue to keep talking about is 
what really ties our hands to be able to make those strategic 
choices and mitigate risk.
    The planning process, from an Army perspective, from my 
perspective, what I saw happen was people trying to do the best 
that they could with the information that they had available 
and provide informed recommendations to the Army leadership.
    And in hindsight, you could make all different kinds of 
assumptions about whether that was right or wrong, but I know 
what the impact is of what we have now. And that is an Army 
service that is in--that is struggling right now to be able to 
provide a trained and ready force. And readiness is--as part of 
quality of life impacts readiness and our ability to recruit 
and retain people in the service, which is what the Army is 
about, it is having a huge impact. And we will continue to be 
challenged with it until we can get through this. And that is 
really the most--the thing I would like to carry away for this 
entire committee.

                         SEQUESTRATION PLANNING

    Until we can get through this, we are going to--it is going 
to continue to snowball and our ability to recover from where 
we are, even right now, just a few weeks into sequestration, 
sir.
    Sergeant Major Barrett. To echo Sergeant Major Chandler, it 
is exactly right. And we mentioned it earlier when we were 
talking to Mr. Carter, and it was--for us, we wanted--we would 
like to be able to put our dollars where we need them. We know 
what is a priority to the United States Marine Corps.
    The other thing is, we have been down this road before. We 
have been a hollow force in the late 1970s and the early 1980s. 
I came in at the very end of it, but I still felt it, and I 
still saw it. I saw what it was like to get up on a Sunday 
afternoon, put all your gear on, walk out to the rifle range, 
bivouac behind the 500-yard line, shoot all week long, eat 
behind the 500-yard line, pack your stuff up on a Friday night, 
walk back six or seven miles, drop your stuff, clean your 
weapons until Friday evening. And that was all because we 
didn't have vehicles or we didn't have gas to put in the 
vehicles, so we had to walk there, we had to live there, we had 
to shoot there. And that is just kind of how business was.
    So I grew up in a generation where I saw it. So it is not 
our first time to the rodeo. Did we come out of it on the other 
end a little bit smarter? Yes. We also came out thinner. There 
was no more muscle. There was no more meat on the bone. And we 
were already cutting into the bone. So we would prefer to make 
the decisions as to where and how we put our dollars for the 
best of the institution.
    Mr. Nunnelee. And what about your planning in the 6 months 
leading up to the sequestration?
    Sergeant Major Barrett. The plan leading up to it, sir? I 
will have to take that for a matter of the record, sir, and 
respond appropriately, because I don't want to speak outside my 
lane.
    The Marine Corps commenced formal sequestration planning as 
directed. This should not imply that significant work had not 
previously been undertaken to prepare for a fiscal environment 
characterized by declining resources. Since the passage of the 
Budget Control Act in 2011, we have worked to assess the 
potential impacts, optimize our force structure and prioritize 
our requirements in order to meet what we acknowledge will be 
significantly reduced funding.These are exceptionally complex 
problems, and we have invested significant time and analysis to 
understand the problem, frame our assumptions, assess impacts 
against our mission, and determine what we could and could not 
accomplish within these funding constraints. Despite these 
upfront efforts, we could not assess the detailed impacts until 
we executed detailed planning as opposed to higher level 
assessments. The Marine Corps has worked to adapt to budgetary 
reductions by continuing our tradition of pursuing ways to 
streamline operations, identifying efficiencies, and 
reinvesting savings in order to get the most out of every 
dollar. It is this mentality that has allowed us to continue to 
provide the best trained and equipped Marine units to 
Afghanistan, even in this era of constrained resources.
    CMSAF Cody. So, sir, I will cover the planning first. 
Initially, our guidance was not to plan, as sequestration was 
never to happen. I mean, it is a line in the sand to say, 
``hey, this is so draconian, we have to make decisions and not 
do this, because it would be so hurtful to the Nation.''
    So I think initially there were discussions about what that 
could mean, so certainly lots of discussion, but deliberate 
planning, no, because--and then at a given point, we were 
instructed not to plan for it, the Services were, so----
    Mr. Nunnelee. You were instructed not to plan for 
sequestration?
    CMSAF Cody. There were instructions not to take any action 
towards sequestration from--you know, because, again, there is 
no authority to do that. We had submitted a budget, expected we 
would receive that budget, and that was the planning phases 
that were in place for us to prepare for that execution.
    So as it became closer, obviously, you start to put things 
together to say, ``well, if this happens, we have to be 
prepared.'' And we did that.
    But that really falls into, I think, the bigger point of 
your question is, is we absolutely need the flexibility. And 
this first year of sequestration without any flexibility really 
hollows out the force, because you are unable to balance those 
cuts to maintain a level of readiness that you may be able to 
recover from over time.
    There are things that will take place in the Air Force that 
we will not recover from because of sequestration in this year.
    Mr. Nunnelee. All right. Thank you.
    And, Mr. Chairman, in the interests of time, I have got two 
questions I would like to submit for the record. If it is okay, 
can I just go ahead and put them on the table?
    Let me just go ahead--and I won't ask for responses. I will 
just ask you to put them in the record.
    Question number one is, as your services look to control 
the rising cost of military health care and benefits, what 
steps will you take to ensure that our warriors and their 
families have ready access to the care they need, both upon the 
return from their deployment and then during their transition 
from the Department of Defense to the V.A. health care system? 
So if--and we will get you that in writing for the record.
    Second question is how will your services balance the need 
to find cost savings and benefits, such as tuition assistance 
and family readiness programs, with the imperative that we keep 
the faith with--and invest in the future of our all-volunteer 
force?
    So we will submit that for the record, Mr. Chairman. Thank 
you. I yield.
    Mr. Carter [presiding]. Mr. Bishop, do you have some 
follow-up questions?
    Mr. Bishop. No, thank you.
    Mr. Carter. Well, I guess not. [Laughter.]
    The chairman--follow-up questions--thank you--we are very, 
very proud of you and all those that serve with you. Keep the 
faith. We will make it better, okay? There is a lot of us that 
are dedicated 100 percent to getting this deal fixed, 
especially as it relates to you and the people you serve. God 
bless you. We appreciate you.
    [Questions for the record follow:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
